NO:

IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2021
GABRIEL MARTINEZ,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

Petitioner Gabriel Martinez, pursuant to Sup. Ct. R. 39.1, respectfully moves
for leave to file the accompanying Petition for Writ of Certiorari in the Supreme Court
of the United States without payment of costs and to proceed in forma pauperis.
Petitioner was previously found financially unable to obtain counsel and the
Federal Public Defender of the Southern District of Florida was appointed to
represent Petitioner pursuant to 18 U.S.C. ยง 3006A. Therefore, in reliance upon Rule
39.1 and ยง 3006A(d)(6), Petitioner has not attached the affidavit that would otherwise
be required by 28 U.S.C. ยง 1746.
MICHAEL CARUSO
Federal Public Defender
By:
Miami, Florida
August 26, 2021

/s/ Kate Taylor
Kate Taylor
Assistant Federal Public Defender
150 West Flagler Street, Suite 1700
Miami, FL 33130
305-530-7000

